No. 19-2800
l:16-CV-02478

IN THE
SUPREME COURT OF THE UNITED STATES
WASHINGTON D.C.
Stephen F. Baker, Jr.

-PETITIONER

m£L£Uzp,K
VS.

Jay Lane

RESPONDENTS(S)

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES DISTRICT COURT MIDDLE DISTRICT OF PA
THIRD CIRCUIT COURT OF APPEALS

Stephen F. Baker, Jr.
PO BOX -6500

7

2500 Lisburn Road
CAMP HILL, PENNSYLVANIA 17001

REC0vgg
DEC -$ 2020

QUESTION(S) PRESENTED

1.

Whether the petitioner is entitled to step through the gateway of equitible tolling?

2.

Whether state courts determinations of trial counsels effectiveness was an

unreasonable application of the state standard of review for violations of the petitioners
Sixth amedment rights to effective assistance of counsel ?

3.

Whether the petitioners guilty plea entered was knowingly, intelligently, and
voluntary quaranteed by the Fifth and Fourteenth amendments?

4.

Whether the petitioners counsel withheld specific discovery from the petitioner
during crucial key points of pre-trial and penalty phase?

>

i

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of this case on the cover page. A list of all parties
to the proceeding in the court whose judgment is the subject of this petition is as follows:

JAY LANE is the only party mentioned on the cover page.

List of parties that do not appear in the caption on the cover page is as follows:

1.

Pannella, J., Wecht, J., and Strassburger, J.* Superior Court

2.

Amy Dreibelbis, Deputy Prothonotary Supreme Court

3.

Carlson, J. Magistrate Judge United States Middle District Court

4.
Yvette Kane, District Judge, United States District Court Middle District of
Pennsylvania

TABLE OF CONTENTS

OPINION BELOW

1,2.

JURISDICTION

3.

STATEMENT OF CASE

4,5.

REASONS FOR GRANTING WRIT

6-21.

CONCLUSION

21.

EXHIBITS

A-N

INDEX TO APPENDIX

APPENDIX C

APPENDIX A

APPENDIX B PART 1.

APPENDIX B PART 2.

TABLE OF AUTHORITIES CITED

CASES:

PAGE NUMBER

Merrit v. Blain 326 F.3d 157

1.

Heard v. United states 93- 464

1.

Rose v. Lundy 455 U.S. 509

2.

Ex Parte Rovall 47 U.S. 241 S.Ct.

2.

Lovasz v. Vaughn 134F.3d at l46

2.

Satterfiled v. Johnson 434 F.3d 185

2.

Jones v. Morton 195 F.3d 153

2.

Merrit Supra 326 F.3d at 168

2.

Fahv v. Horn 240 F.3d 239

2.

Lovasz v. Vaughn 134 F.3d 146.....

3.

Cone 556 U.S. at 472

3.

Rompilia v. Beard 545 U.S. 374
Schup v. Delgato 513 U.S. 298 at 236-27

3.
,4.

Jenkins v. Hutton 137 S.Ct 1769 (2017).........

,4.

Jenkins v. Hutton 137 S.Ct 1769 (2017).........

.4.

Strickland v. Washington 466 U.S. 668 (1984)

5.

Hill v. Lockhart 474 U.S. 52 (1985).................

5.

People v. Jenkins 68 N.Y. 2d 896 (1986).........

5.

Wiggins v. Smith 539 U.S. 510, (2003).

6.

Godinez v. Moran 509 U.S. 389 (1993)

6.

Elev v. Bagiev 604 F.3d 958 (2010)......

.6.

Strickland v. Washington 466 U.S. 668 (1984)

6.

Nelson v. Hargett 989 F.2d 847
Office of Disciplinary counsel v. Anonymous Attorneys A 552 Pa 223 (1988)

6.
7.

Williams v. Washington 59 F.3d 673 (1995)..

7.

United States v. Cronic 466 U.S. 648 (1984)..,

,7. '

Commonwealth v. Bath 907 A.2d 619 (2006)

...8.

Commonwealth v. Commonwealth v. Lantzy 558 Pa 214 (1998)

8.

Commonwealth v. Myers 481 Pa 317 (1978)................................

8.

Commonwealth v. Marsh 440 Pa 590 (1970)...............................

8.

Commonwealth ex rel Sanders v. Maroney 417 pa 380 (1965).....

8.

Commonwealth v. Weakland 512 pa 353 (1989)....... ............ ......

8.

Brady v. U.S................................................................

8.

Bouslev v. United States 523 U.S. 614 (1998)..............
Marshall v. Lanberger 459 U.S. 422 (1983)......................

9.

\

9.

Hartzog v. Brooks 2006 U.S. dist. Lexis 21620 (2006)......

9.

Henderson v. Morgan 426 U.S. 637 (1976)........ ............

9.

Boykin v. Alabama 395 U.S. 238 (1969)....................... .

9.

Salaam v. Dept of Corr 2005 U.S dist. Lexis 15277 (2005)
Zilich v. Reid 36 F.3d 317 (1994)..... ........ ......................

.9.
9.

Commonwealth v. Barbosa 819 A.2d 81 ( 2003)..............

9.

Commonwealth v. Zacher 455 Pa Super 594 (1997).......

10.

Commonwealth v. Mikulan 504 oa 244 (1983)................

11.

Commonwealth v. Cain 349 pa Super 500 (1986)............

11.

Commonwealth v. Woodell 344 Pa Super 487 (1985)......,

11.

-

Moore v. illonois 408 U.S. 786 (1972)

12.

United States v. Aeurs 427 U.S. 97 (1976)

12.

Bradv v. Maryland 373 U.S. 83 (1963)

13.

United States v. Abdallah 911 F.3d 2001 (2018)

13.

People v. Haves 950 N.E. 2d 118 122 (2001)

14.

Kelly 62 N.Y. 2d 520,

14.

U S. v . Moussaoui 591 F.3d (2010).... .................. ................. .

14.

Wright v. Commonwealth 275 Va 77 12008).... .................. .........

14.

U.S, V/ Crimino 381 F.3d 124 (2004).............................................

14.

LLSi v. Rivera 357 F.3d 290 (2004)................ ........... ............ .

.14.

United States v. Cooke 668 F.2d 317 ( 1982)............... ............ .

14.

Langman v. Alumi Ass'n of the Univ. of Va 247. Va 291 (1994)....

15.

Amchem v. Newport Cir Court 264 Va. 89 563 S.E. 2d 739 (2002)

15.

Yukon Pocahontas Coal Co. v. Ratliff 181 Va 195 (143)................

15.

Watkin v. Commonwealth 25 Va App 646 (1997)........ ............ .

16.

STATUTES AND RULES
28 U.S.C. § 2244 (D) ONE YEAR TIME LIMITATION BOTH TO STATUTORY AND EQUITIBLE
TOLLING
28 U.S.C. § 2244 TIME LIMITATIONS
28 U.S.C. § 2254 HABEAS CORPUS
28 U.S.C. § 2244 TIME LIMITATIONS
28 U.S.C. § 2254 (B) EXHAUSTED STATE REMEDIES
28 U.S.C. § 2244 (D) (2) RIDIG APPLICATION EQUITIBLE TOLLING LIMITATIONS

28 U.S.C. § 2244 (D) (2).MANDATES THE ONE YEAR TIME LIMITATIONS TO FILE A HABEAS
CORPUS.
28 U.S.C. § 2244 (D) (2) WHICH EXCLUDD FROM THE PERIOD OF LIMITATION THE TIME
PROPERLY FILED APPLICATION FOR STATE.
FHCPP 26:4 ACTUAL INNOCENCE.
28 U.S.C. § 2254 (D) FAILURE TO APPLY TO HABEAS RELIEF WILL BE TIME BARRED.
RULE 3:10 INEFFECTIVENESS CLAIM BASED UPON LAWYERS INCOMPETENCE.
18 PA C.S. § 309 ACTING UNDER A DOMINATION OF ANOTHER AND DURESS OF ANOTHER.
RULES OF PROFESSIONAL CONDUCT § 804 (C) PROFESSION MISCONDUCT.
WEST CRIMINAL LAW 3.5 NON DISCLOSURE OF STRATEGY.
RULES OF PROFESSIONAL CONDUCT § 1.6 (0) DUTY NOT TO REVEAL INFORMATION ABOUT
REPRESENTATION.
RULE OF PROFESSIONAL CONDUCT § 1.6(D)
28 U.S.C. § 2244 (D) (2)
WEST CRIMINAL LAW § 3.4 COUNSEL IS BOUND BY ETHICAL AND LEGAL DUTY BETWEEN CLIENT
AND ATTORNEY.
42 PA C.S.A. § 4132 (2) COURT MAY INFLICT CONTEMPT CHARGES FOR DISOBEDIENCE OF A
LAWYER.
RULE 590 (A) (1) COLLOQUY READ, SIGNED, IN THE COURT ROOM ON COURT RECORD.
50 P.S.§ 7402(E) FULL AND COMPLETE COMPETENCY EVALUATION.
18 PA C.S.A. § 302 (BO (1) (i) AND (ii) SPECIFIC AWARENESS OF INTENT.
PA.R.CRIM.P. § 573 (C) (1) (B) DEFENSES DUTY TO DISCLOSE MENTAL INFIRMITY.
PA.R.CRIM.P. § 573 NON DISCLOSURE OF EVIDENCE.
§ 16,3 (C) DISCLOSURE OF WITNESSES STATEMENTS.

IN THE
SUPREME COURT OF THE UNITE STATES

PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW

[ ] For cases from federal Courts:
The opinion of the Unites States court of appeals appears at Appendix C to the
petition and is
[ ] reported at____________ __ ___________ _______________

or,

(yfhad been designated for publication but is not yet reported; or,
[] is unpublished^
[ ] Then opinion of the United.States district court appears at Appendix D to the petition and
is
[ ] reported at

; or,

[ ] had been disignated for publication but is not yet reported; or,
['fls unpublishes.
['] For cases from State Courts:
The opinion of the highest state court to review the merits appears at Appendix A to
the petition and is
;
fjreportedat
^6.
or.

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the

court appears

at Appendix B to the petition and is
[ ] reported at

u»

o , v7k

[ ] has been designated for publication but is not yet reported; or,

[ ] is unpublished.

. or/

JURISDICTION

[ ] For cases from Federal Courts
The date on which the Ur ited States Court of Appeals decided my case was August 9.
2019.
lyffJo petition for rehearing was timely filed in my case.
[/a timely petition for re
Tearing was denied by the Unites States Court of Appeals on
the following Date: _________ —-----------.
and a copy of the oreder denying
rehearing appears at Appendix
[] Am extension of time :o file the petition for writ of certiorari was granted to and
including
(date) on
(date) in Application No. _
A
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254 (1).

[ ] For cases from State Courts:
The date on which the higiest state court decided my case was April 6. 2016. A copy
of that decision appears at Appendix A.
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing appears on Appendix _.
[ ] An extension of time to file the petition for writ of certiorari was granted to and
including
(date) or
(date) in Application No.___ A
The jurisdiction of this Cou rt is invoked under 28 U.S.C. § 1257 (A).

STATEMENT OF CASE
PROCEDURAL HISTORY:
On Decemmber 30, 2004 the Pennsylvania state police filed a criminal complaint charging the
petitioner with two counts of criminal homicide; (first, second, and third degree; and voluntary
manslaughter); Robbery; Possession of an instrument of a crime; Crimes committed with a firearm;
and firearm not to be carried without a license.
The next day, the trial court appointed Thomas K. Hooper Esq. and David G. Smith Esq. to represent
the petitioner. On February 11, 2005, the Commonwealth filed a 16 count information and notice of
intent to seek the death penalty.
On may 23, 2005, hearings were held regarding the petitioners omnibus pre-trial motions.
On September 11, 2006, jury selection began in this matter at the Huntingdon county court of
Common Pleas. At this time, the petitioner was advised by counsel that they did not wish to try this
case and began discussing entering a gulity plea to two counts of second degree murder.
On September 20, 2006, the petitioner was sentenced to two life

concurrent sentences, in

accordance with the terms of the negotiated plea agreement.
On September 20, 2006, Attorney Hooper and Smith filed a post sentence motion with the lower
court, requesting that the petitioner be permitted to withdraw his guilty plea. Although a hearing
was set for November 30, 2006, no hearing was ever held in the lower court regarding the petitioners
request to withdraw his guilty plea.
On April 4, 2007, the Huntingdon county Clerk of courts entered an order dismissing the petitioners
post sentence motion by operation of law, pursuant to PA.R.CRIM.P. 720 (B) (3).
On April 25, 2007, an appeal was filed in the Superior court raising numerous issuses, including trial
counsels ineffectiveness raising Six amendment claims.
On February 12, 2008, an opinion was issued by the Superior court stating that the issues raised
should be addressed in a PCRA petition, and not on direct appeal.
On January 16, 2009, The petitioners first PCRA was filed with the court. A hearing was held on the
petitioners first PCRA on April 19, 2009, which was subsequently dismissed by the lower court on
November 19, 2009.
On February 2, 2010, the pettitioners filed his second PCRA with the lower court. Oh March 18, 2010
Attorney Bill Tressler Esq. was appointed to represent the petitioner.

On July 15, 2013, the petitioner requested a change in counsel for abandonment issues on his second
PCRA and the lower court granted this on September 24, 2014, by oppointing attorney Ray Ganer Esq.
to represent the petitioner and would later learn that he had a conflict of interest with this case and
on November 7, 2014, the lower court appointed Attorney Lance T. marshall Esq. to represent the
petitioner.
On December 16, 2014, The petitioner filed his thrid PCRA petition with the lower court. On February
25, 2015, the lower court entered and order reinstateing the petitioners appellate rights Nunce pro
tunc. As a result, the petitioner was allowed to appeal the denial of his First PCRA petition, which
was filed to the Superior court on August 10, 2015.
On November 30, 2015, the Superior court affirmed the lower courts denial of the petitioners first
PCRA petition.
On December 28, 2015, the petitioner filed his petition for allowance of appeal with the Supreme
court of Pennsylvania, which was subsequently denied on April 6, 2016.
The pettioner next filed his Habeas corpus petiton with the third circuit. The Third circuit sent the
petioners Habeas Corpus back to the District Magistrate court over seen by Magistrate Judge Carlson
J. The petitioner then filed a motion for an extention of time which was Granted by the court.
On May 22, 2019, The Magistrate Judge Carlsons report and recommendation (Doc. No. 25) was
adopted and that the petitioners petition for Habeas Corpus was Dismissed by the court.
On July 17 2019, the petioner entered into the court a motion of Objections to the Honorable Judge
Calsons dicison to dismiss the petitioners Habeas Corpus (Doc. No. 27) which was OVERRULED by
Judge Carlson. The petition now affirmed is denied and a Certificate of Appealibility not to issue; The
Judge ordered the Clerk of Court to close this case.
On August 23, 2019 the petitioner received a statement by the Attorney general Josh Shapiro stating
that the appellees will not file an answer to the appellenats application for a Certificate of
Appealibility. The Appellees refer this court to the report and recommendation by Magistrate Judge
Carlson Filed on May 22, 2019.
The petitioner now files this appeal with the Supreme Court of Washington D.C. as follows:

ARGUMENT
1.

The AEDPA'S one year statute of limitations is subject both to statutory and equitable

tolling under 28 U.S.C.§ 2244(D). Enumerating statutory tolling provisions, Merrit v. Blain 326
F.3d 157 ( 3rd cir) holding, "AEDPA’S time limit is subject to the doctrine of equitable tolling,
"A judicially crafted exception." As such, the instant petitioner for Ferderal habeas corpus
relief was filed within the statutory time limits imposed by 28 U.S.C. § 2244. "the time limit
clause is subject to due process violations under the Fifth and Fourteenth amendments
requirements that the petitioners still had time to protect with his 28 U.S.C. § 2254 habeas
corpus petition and did meet the standard of equitable tolling."
2.

The one year limitations shall apply to an application for writ of habeas'corpus by a

person in custody pursuant to the judgment of the state court. The limitations shall run from
the latest of:
A.

The date onwhich the judgement became final by a conclusion of direct review
of the expiration of the time seeking the review; or,

B.

The date onwhich judgment became final on the impedment to filing an

application created by state action in violation of the constitution or laws of the United
States is removed, if the application was prevented from filing a state action; or,

C.

The date onwhich the constitutional rights asserted was initially recognized by
the Supreme Court and the Federal Middle District Court, if the right has been newly
recognized by the Supreme Court and made retoactively applicable to cases on collateral
attack and review; or,

D.

The time during a properly filed application for post conviction relief or other
collateral attack with respect to the pertinent judgment or claim is pending "shall not be
counted" toward any time period of limitation under this subsection. The proof will show
that the habeas corpus petition is timely and that this court granted relief with regards to the
appellants case on the merits and not equitable tolling. The petitioner never had a motion
entered into the court for ineffectiveness of counsel for abandonment issues under 28 U.S.C.
§ 2244 inwhich was the case of Heard v. United States 93-464. In this case of "Accual

Innocents" the appellant was at the mercy of counsels ineffectiveness a Sixth amendment
violation.

Generally,

the Federal courts will only grant heabeas corpus relief to a state

prisoner if availible state remedies have been concluded and exhausted, under 28 U.S.C. §
2254 (B). Under these exceptional circumstances the appellant has provided in detail for the
state courts to correct the alleged violations to his rights without disruption to the Federal
courts. Rose v. Lundy 455 U.S. 509 (1982). In Exparte Royal 1. 117 U.S. 241 S.ct (1886). The
exhaustion doctrine existed long before it's codification by congress in 1948. This court wrote
that as a matter of comity, Federal court should not consider a claim on habeas corpus petition
until after the state courts have had an opportunity to act. " The injunction to hear the case
summary, and thereupon to dispose of the party as law and justice require 'does not deprive
the court of discretion as to the time mode inwhich it will exert the powers confered upon it.
That discretion should be exercised in the light of the relations existing, under out system of
government, between the judicial tribunals of the union and of the states, and in recognition
of the fact that the public good requires that the relations will not be disturbed by
unnecessary conflict between courts equally bound to guard and protect rights secured by
the constitution." The petitioner however did exhaust his claims and his constitutional rights
were denied by the "State Supreme Court of Pennsylvania."

The petitioner avers that the

limitations period for the instant petition should be tolled for the time during which a properly
filed application for state post conviction or other collateral attack is pending. See 28 U.S.C.
2244 § (D) (2); Lovasz v. Vaughn 134 F.3d 146 (3rd cir 1998). The limitation period will
equitably tolled when the principles of equity would make the ridged application of limitation
period unfair. Satterfield v. Johnson 434 F.3d 185 (3rd cir 2006): Jones v. Morton 195
F.3rd 153 (3rd cir 1999). The petitioner avers that the lower courts records will reflect that he
exercised reasonable dilligence in investigating and raising the claims asserted by tolling
Merrit. Supra 326 F.3d at 168 Citing Fahv v.

Horn 240 F.3d 239 ( 3rd cir 2001).

The

petitioners petition for allowance of appeal in the Supreme court of Pennsylvania was entered
in the court on December 28, 2015. which subsequently was denied on April 6, 2016. The
petitioner had one year from the denial of his appeal from the state Supreme court of
Pennsylvania from April 6, 2016 til April 6, 2017. The Federal habeas corpus was submitted to
the federal court on November 14, 2016 well within the the one year statutory limitations to
file the habeas corpus, the federal district court denied his habeas corpus due to equitable
tolling, with no issuing of a Certificate of appealibility because in Judge Carlsons opinion, this
case should not reopen because of the impact it would have on the victims families which
violated the petitioners due process rights under the Fifth and Fourteenth amendments to
move his case toward on the merrits alone.

As in Lovasz v. Vaughn 134 F.3d 146 (1998). The District Court dismissed the habeas corpus
petition as timeb-barred under 28 U.S.C. § 2244 (D) (2), which mandates a one-year time limit
for filing a writ of habeas corpus by a person convicted in a state court.
challenged the dismissal and requested a certificate of appealibility.

The appellant

The court reversed,

holding, that the appellants habeas corpus petition was timely filed pursuant to the tolling
clause of 28 U.S.C. § 2244 (D) (2), which excluded from the period of limitation the time during
which a properly filed apllication for State - post conviction petition was pending.

The

appellant's petition was pending before the State Supreme Court until September 26, 1996,
thus, the one-year time limitation period did not expire til September 26,1997.

3.

This case mimics this petitioners case with respects to it as a whole but, the difference

being that this litigant was not allowed to pass through the gateway of equitable tolling due to
biasness from Judge Carlson, J. the Magistrate Judge form the United States Middle District
Court and the deprivation of the petitioners rights to "Due Process" under the Fifth and
Fourteenth amendments, for not allowing the petitioner to have his petiton litigated on appeal
by denying the petitioner his rights to have a certificate of appealibility issued because he did
not want the case to be opened because of the family of the victims. See Exhibit "A" Judge
Carlson, J. decision and opinion of the case.

4.

If a claim was "not" adjudicated on the "merits" in state court, we in the Federal Court

will review legal questions and mixed questions of law and fact "de novo" Cone 556 U.S. at 472
Citing Romoilia v. Beard 545 U.S. 374 (20051.

5.

In the United States Supreme Court reversed. It was held that in failing to examine the

trial court's prior conviction file on the accused, the accused's trial counsel had fallen below
the standard of reasonable competence required of defense counsel under Federal
constitutions Sixth amendment that even when a Capitol defendant and the defendants family
members had suggested that [no] mitigating circumstancial evidence was availible, the
defendants cousel was required to make reasonable efforts to obtain and review evidence that
counsel knew the prosecution would probably rely on as aggravating evidence at the
sentencing phase of trial.

6.

Federal habeas corpus practice and procedure, a (FHCPP § 26.4) "Actual innocents"

makes it through the time - bar limitations under 28 U.S.C. § 2254 (D), failure to apply for
habeas corpus relief will then be time-barred. In this case the petitioner timely filed his habeas
corpus petition and should have been allowed relief on the merits. In Schup v. Delgato 513
U.S. 298 at 326-27 sharply distinguishes the petitioners first habeas corpus petition and that
the dismissal denies the petitioner protections of the (Great Writ) entirely, risking injury to an
important interest in human liberty. Actual innocence can be used as a gateway to Federal
court for a claim that would otherwise be barred by some procedural default. For example, a
claim that would be barred by the [AEDPA] statute of limitations, will be considered on the
merits of the case which the appellants actual innocence is shown and the prisoner has not
"unreasonsablv delayed" in bringing that claim to Federal Court. To receive relief, theres more
in additional to meeting the very demanding test for actual innocence. The applellant must
establish and demonstarte a seperate constitutional violation, apart form his actual innocence
which probably caused the guilty plea. This later principle was applied and explained in a
recent case of Jenkins v. Hutton 137 S.ct 1769 (2017). In Jenkins, the appellant filed a habeas
corpus petition alleging a claim that the petitioner could have brought upon direct appeal.
Avoiding a miscarriage of justice requires that a showing by clear and convincing evidence that
but for clear constitutional error, no reasonable juror would have found the petitioner guilty
under the aplicable state law.

Now the Supreme courts decision which talks about special

circumstances that can exuse the a failure to bring the claim of direct appeal and one of these
exceptions is where the habeas corpus petition contains something of "substance" that was
not on the record on direct appeal.

7.

In the petitioners first [PCRA], defense counsel Kling called to the witness stand

Thomas Hooper original trial counsel for the defendant. On Exhibit "B" N.T. pg 1 Ins 9-22
states that, Thomas Hooper was ineffective for not having made a motion to sever the charge
of a Felon not to possess a firearm in the petitioners trial, and that defense counsel Kling made
notation on court record that it was ineffectiveness assistance of counsel due to the
"requirement" that the commonwealth must prove that a felony was committed by the
defendant.

On Exhibit "C" N.T. pg 2 In 10 Kling counsel for the defendant states on court

record that it is ineffectiveness because the motion was never filed. This is a Sixth amendment
violation and special circumstances with substance. Jenkins v. Hutton 137 S.ct 1.769 (2017).

8.

On Exhibit "D" N.T. pg 26 Ins 19-25 states that, original trial counsel Thomas Hopper

and David Smith sucessfully petitioned for two private investigators and one mitigation expert.
The expert in mitigation was Doctor Mark Tabikmap. Now on Exhibit "E" N.T. pg 28 Ins 8-21

states, the mitigating circumstances were never used at pre-trial suppression phase and that if
it would have been offered, it would have been on record that the petitioner has a tragic fall
several years prior to his arrest and that the petitioner suffered just debilitating injuries and
brain damage on the left frontal lobe. Trial counsels never offered the expert testimony at pre­
trial from the mitigation expert Dr. Tabikman, thereby causing ineffectiveness of counsel a
Sixth amendment violation for not allowing the court to know that the petitioner has severe
"mental diminished capacity" in which counsel concealed.

9.

Under § 3:10 Ineffectiveness assistance claims based upon lawyers incompetence:
A.

Prior to the Supreme courts 1984 ruling in Strickland v. Washington 466 U.S.

668, states, lower courts have been divided on several issues bearing on those ineffectiveness
assistance claims that were grounded on the allegedly incompetent performance of counsel.
Some courts have adopted specific guidelines for judging defense counsel's performances
(typically borrowed from the ABA standards), with a departure from a guideline consulting
per'se "incompetency," others eschewed guidelines and stressed a fact-sensitive analysis that
looked to all circumstances of the case. Among courts that focused on the totality of the
circumstances, some apllied the traditional test of whether a counsel's deficiencies were so
great as to have rendered the proceedings a "Farce" or "Mockery of Justice," while others
looked to whether counsel's performance fell below that of a "reasonably competent
attorney." Most courts further required for reversal, a defense showing that counsel's
incompetence has a prejudicial impact upon the outcome. Even the defendants challenge in
Strickland was to the performance of counsel in a capitol case sentencing proceeding. After
discussing the role of counsel in the adversary adjudication of guilt, the court noted that the
same principles applied to a capitol sentencing proceeding as it was "sufficiently like a trial in
its adversarial format and in the existence of standards for decisions." Citing Hi]] v. Lockhart
474 U.S. 52 (1985), prejudice surrounding attorney's failure to investigate further or to
discover exculpatory evidence, especially in this case with the petitioners mentalhealth issues
and diminshed capacity to under the the case and to be able to consult his lawyer with a
degree of competence and understanding. The petitioners original trial counsel fell well below
the standards set forth in Strickland by not having the mitigation expert to investigate even
further into the petitioners backround from when he was a child and, when he was being seen
by mental health physicians. Citing People v. Jenkins 68 N.Y. 2d 896 508 NYS 2d 937 501 N.E
2d 586 (1986), Failure to use crucial evidence, if due soley.to attorney's erroneous assumption
of its inadmissibility, may be so prejudicial as to be ineffective assistance of counsel.

The petitioenr avers that the lower court record will prove that trial counsel's performance was
constitutionally ineffective in

his duty to investigate mitigating and

mental

illness

circumstances of the case and all avenues that were relevant to the cases merit. Wiggins v.
Smith 539 U.S. 510 (2003). Congress codified this competency standard in 18 U.S.C. § 4241
(D), requiring that a criminal defendant to be competent has a modest aim: It seeks to ensure
that the petitioner has the capactity to understand the proceedings and to assist counsel.
Citing Godinez v. Moran 509 U.S. 389 (1993). The court may consider the prejudice prong
because counsels presumption appliable, when counsel did not fully investigate mitigating
circumstances involving evidence before the sentnecing phase. Elev v. Bagiev 604 F.3d 958
(2010). Citing Strickland v. Washington 466 U.S. 668 (1984). A defendant who alleges a
failure to investigate on the part of his counsel, must allege with specification to what the
investigation would have revealed and how it would have effected the outcome. Nelson v.
Hargett 989 F.2d 847. Mitigating circumstances surrounding the petitioners mental state on
the night of the murders would have proved that the outcome would have been different on
his court case,

The petitioner maintained his actual innocents throughout every court

proceeding.
Mitigating circumstances shall include the following:
A.

The defendant was under the influence of extreme mental or emotional

disturbance; or,
B.

The defendant acted under extreme duress, although not such duress as to

constitute a defense to prosecution under 18 Pa C.S. § 309 (relating to duress) or acted under
the substantial domination of another person.

The petitioner never had possession of the murder weapon on the night of the murders,
Crystal Frederick had possession of the murder weapon and the petitioner was under the
domination of another due to his mental illnessess from his brain damage. Even under Rule
703 the bases for an expert witness testimony, an expert may base an opinion on the facts or
data in the case that the expert has been made aware of or personally observed. If experts in
the particular field would reaonably rely on the subject, they need not to be admissible for the
opinion to be admitted. Dr. Tabikman mitigation expert for the defense was not allowed by
defense counsel to admitt any evidence of the defendants mental illnesses, which would have
raised the mitigation opinion of the docotor relevant to this case, which now raises the
ineffectiveness of counsel claim by the defendant a Sixth amendment violation of the
defendants rights.

10.

Under Rule of profession conduct § 804 (C), states, "it is professional misconduct for a

lawyer to engage in conduct involving dishonesty; fraud; deceit; or, misrepresentation."
Office of Disicplinarv counsel v. Anonymous Attorney A. 552 Pa 223 (1988).

In the insaid

case, the concealing of mitigating circumstances surrounding the petitioner revealed
dishonesty and fraud by trial counsels Hooper and Smith. Under § 3.5 Wests Criminal Law
states, "defense counsel stands in a fiduciary relationship with the client and is obligated to
protect the client's confidences and secrets, counsel may not reveal information relating to
representation of a client unless the client consents after consultation, except for disclosures
that are impliedly authorized in order to carry out the representation, and disclosures
otherwise required or permitted by the rules of professional conduct:" See Rules of
Professional Conduct § 1.6. The duty not to reveal information about the representation of a
client continues after the attorney client relationship has terminated. See Rule of Professional
Conduct § 1.6 (D).

See Exhibit "F"

Index to witnesses for the Commonwealth, Thomas

Hooper for the petitioners first [PCRA] hearing. Thomad Hooper should have invoked his Fifth
amendment right to remain silent, instaed, he divuldged key moments of his representation
and strategy by being a witness for the Commonwealth and against the petitioner. See Exhibit
"G" N.T. pg 30 PCRA hearing Ins 15-21 which states, " the strategy that was discussed
between the petitioner and Thomas Hooper and David Smith."

Now attorney Kling and

Jackson never "Objected" to Hoopers testimony and the petitioner now raises this claim of
ineffectiveness of counsels, a Sixth amendment violation of the petitioners rights to effective
assistance of counsel in this Writ of Certiorari.

11.

Rights to assistance of counsel includes necessary right to have adequate time for

preperation of the case by counsel.

Williams

v.

Washington 59 F.3d 673 (1995).

The

petitioner was deprived of effective assistance of counsel in his criminal proceedings and trial,
where counsels lack of knowledge and farmiliarity with the case, and failure to investigate and
provide the petitioner with a trial significatly different that the petitioner might have received
if represented by competent attorney's. Counsels Hooper and Smiths performance fell short of
the objective standard of reasonableness under prevailing professional norms. Prejudice will
be presumed in accordance with United States v. Cronic 466 U.S. 648 (1984), and need not to
be alleged or proven in the following situations:
A.

Counsel could be found to be ineffective in not filing an appeal even though
the defendant did not request the appeal; or,
B.

Where counsel fails to consult with the defendant with the advantages and

disadvantages of an appeal; or,
C.
See

where there is reason to think that the defendant woould want an appeal.

Commonwealth

v.

Bath

907 A.2d 619 (2006), or failure to request an appeal

Commonwealth v. Commonwealth v. Lantzv 558 Pa 214, 736 A.2d 564 (1998). In the insaid
case , the petitioner did request from his counsel to appeal the Judges decision within a very
specific time of Six to Seven days after the imposition of sentence. Even though the petitioner
did ask his counsels to appeal, there was never a hearing set or held on this issue rendering
ineffectiveness of counsel another Sixth amendment violation.

12.

In pleading guilty to a charge of murder generally, a defendant does not waive his

rights to object to the admission of improper evidence which will bear the degree of guilt and
the punishment to be imposed.
Commonwealth v.
Myers 481. Pa 217 (1978);
Commonwealth v. Marsh 440 Pa 590 (1970). Thus, unlike guilty pleas to non- murder
offenses an accused who pleads guilty to murder generally may still object to the admissibility
of an illegally obtained confession and seek its exclusion from the "degree of guilty hearing."
Commonwealth v. Marsh 440 Pa 590 (1970); Commonwealth v. Garret 425 Pa 594 (1967);
and Commonwealth ex re) Sanders v. Maronev 417 Pa 380 (1965). The petitioner had
accepted a plea of guilty to an illegally induced guilty plea and colloquy, trial counsels Hooper
and Smith never "objected" to the illegally induced confession of the petitioner, at his guilty
plea hearing.

The petitioner never received information reguarding a "degree of guilt

hearing." The petitioner was never given this opportunity and this is a due process violation
of his Fifth and Fourteenth amendments. Commonwealth v. weakland 521 pa 353 (1989).
Even the inducements by the prosecution at the time of the guilty plea hearing for the
petitioner used a sysytem that has developed in his county and depends not upon such
statutory inducements but rather upon inducements frequently placed foward by prosecution
in individual cases like in this case with the petitioner.

13.

In Brady v. JLhS. upholding as voluntary and intelligent a guilty plea entered under the

statutory scheme, was found unconstitutional even in "Jackson." the court cast it's decision in
terms that appeared calculated to lend support to some forms of the plea bargain which is
illegal were Judges cannot impose sentence based upon a bargain between prosecution and
the defendant, that is a Fifth and Fourteenth amendments rights violations of due process.
The court is obligated to issue sentencing based off of statutory terms of the crimes codes and
not the plea bargain.

■

14.

Due process guarantees that a defendant's plea be voluntary and intelligent, Bousley

v. United States 523 U.S. 614 (1998). The voluntariness of a plea presents a question of law.
Marshall v. lanbereer 459 U.S. 422 (1983).

15.

The petitioner avers that the state courts considered its determinations concerning the

validity of his plea represents "a decison that was based upon an unreasonable determination
of the facts in light of the evidence presented in the state court proceedings." 28 U.S.C. § (D)
(2); citing Hartzog v. Brooks 2006 U.S. dist. lexis 21620 (2006).
16.

A guilty plea in considered to be voluntary if the accused understands the nature of the

charges against him and the constitutional standards and protections he is waiving. Henderson
v.

Morgan 426 U.S. 637

(1976);

Further, the plea cannot be induced by threats or

misrepresentations. Hartzog. Supra.

17.

The petitioner avers that the guilty plea colloquy in this matter is constitutionally invalid

were ineffectiveness of counsel rendered the proceedings fundermentally unfair to the
petitioner for failing to consider the petitioners cognitive impairment and his inability to
properly understand his rights. Boykin v. Alabama 395 U.S. 238 (1969). "The federal court
must decide whether the state court's application of federal law, when evaluated on the
merits, resulted in an oputcome that cannot reasonably by justified under the existing
Supreme court precedent." Salaam v. Deo't of Corr 2005 U.S Dist. Lexis 15277 (2005).
Cosequently, a guilty plea that is induced divests the plea of it's voluntainess character
rendering it void as a matter of law. Zilich v. Reid 36 F.3d 317 (1994).
18.

The federal rules that courts cannot fairly adopt a standard that would exclude, without

examination, all the possibilities that the defendants averments at the time of the guilty plea
were the product of misunderstanding, duress, and or misrepresentaion by counsel as it was in
this case. The Pennsylvania standard is congruent with Federal law in this regard.

Our law

does not establish a per se rule that maybe applied ridigly with no consideration of the nature
.

of the averments made in the guilty plea comparison to the claims that would have been raised
on appeal. In Gold. . Supra, (permitting a withdrawl of a plea upon recognition that counsel
provided ineffective representation which induced the plea thereby demonstrating that the
defendaant's actions was unintelligent and rendering the plea involuntary and unknowingly.
Commonwealth v. Barbosa 819 A.2d 81 (2003). Holds," if a defendant was unaware of or was
misled about the penalty to which he is subject, he must be pertmitted to withdraw his gulity
plea, even if a lack of knowledge or mistaking belief was infact material to his decision to
enter a plea.

19.

At the pretrial conference and suppression hearing Dr. Arbitell who is a licensed
Clinical Psychologist was called to the witness stand as the Commonwealths witness, who was
Judge appointed. She performed a series of test on the defendant. As a result of those test
she confirmed and diagnosed the defendant with as suffering from a verbal learning disorder
and disibility. She found that the defendant who had a full scale range of intelligence of 87
meaning low average and an I.Q. of 78 meaning boarderline retarded. See Exhibit "H."
20.

On September 11, 2006 the colloquy for the guilty pie awas held for the petitioner
which was induced by the petioners two counsels Thomas Hooper and david Smith. The
petitioner never understoof the guilty plea colloquy. See Exhibit "I" and Exhibit "J" pgs 65 and
66. Also See Exhibit "K" N.T. pg 72 Ins 12-14 which states that," Hooper actually filled out the
guilty plea colloquy for the defendant." This illegal action caused the petitioner to waive all
of his or most of his constitutional rights which was under ineffectiveness of counsel a Sixth
amendment violation. See Wests Criminal Law 3:4 which states, "counsel for the accused is
bound by the eithical and legal duty of attorney to client." Counsel should represent the
client zelously within the bounds of law, and unfettered by compromising influences.
Attorneys Hooper and Smith for the petitioner could have been convicted for direct criminal
contemp pursuant to 42 Pa C.S.A. § 4132 (2), which provides, Courts may inflict summary
offenses for criminal contemp for disobedience or neglect by parties to the lawful process of
the court. Commonwealth v. Zacher 455 pa Super 594 (1997). For special circumstances
such as filing out the guilty plea colloquy questionair in private for the petitioner and not
infront of the court on record provided by R.CRIM.P. RULE 590 (A) (1) Holds, in addition,
nothing in this rule will proclude the use of a waiver colloquy that is read, completed, signed
by the defendant, and made part of the record in the plea proceeding, "Not In Private” The
petitioner did not understand what the guilty plea colloquy was and what it stood for due to
his trial counsels ineffectiveness to completely explain the ramifications of what he was
pleading out too. Hooper and Smith never intened to go to trial for the petitioner and that is
why they induced the petitioner to take the plea in which he was told was in his best interest
but wasn t. The petitioner as a result of wanting to claim his innocents was threatened to
take the plea or death will become him for the deaths of Dixon and Wills. This was a Sixth
amendment violation and a Fifth and fourteenth amendments violations to due process. The
petitioners counsels new from the clinical psychologist Dr. Arbitells opinion on the witness
stand that a mental health practitioner/psychiatrist should have conducted a full and complete
competency evaluation on the petitioner on an out patient bases at the correction institution
pursuant to 50 P.S. § 7402 (E). This was another miscarriage of justice on behalf of the court
and the lawyers representing their client Hopper and Smith. Ineffedctiveness of counsel.

21.

intent had been defined as a specific awareness of what one wants to do and what one

wants to accomplish. 18 Pa C.S.A. § 302 (B) (1) (i), (ii). Commonwealth v. Mikulan 504 Pa
244, 470 A.2d 1339 (1983).
22.

When the accused is charged with a crime in which requires specific intent to committ

some act, a defnse would be that the accused lacked the mental capacity to form the specific
intent required for guilt.

However, counsel must be sure that they properly notify the

Commonwealth of the intent to assert a diminished capacity defense and to provide the
Commonwealth with details of any mental infirity or the defendant will be precluded from
asserting the defense. PA R.CRIM.P. 573 (C) (1) (B) concerning a defenses duty to disclose the
notice of mental infirmity defense, which counsel for the petitioner did not provide the
Commonwealth with on his behalf, if they did, a Bi-furcated trial would have had to have
taken place by a mental health Judge first before a regular trial Judge would ahve been able to
have adjudcated over the insaid case. This was a Fourteenth amendment rights violation for
due process and ineffectiveness of counsel a Sixth amendment violtion.
23.

A defendant who allegs diminished capacity attempts to demonstrate that, although

the surrounding circumstances may lead the trier of the fact to infer that he acted with specific
intent, his psychological makeup "infact" prevented the foundation of specific intent in this
particular instance of this case. Commonwealth v. Cain 349 Pa Super 500 (1986).
24.

Due to the defendants mental illnesses he did not receive his "discovery" due to his

mental illnesses from his original trial counsel Hooper and Smith, which claim that they did
not give him proper discovery because he could not read or write. See Exhibit " L" Counsel
failed to adequately review and explain the importance of the materials obtained in the
discovery.
25.

When a prosecution fails to disclose discovery information of which defnse becomes

aware of bfore or during trial phase, a short continuance for the defnse to assimiliate the
motions are more of a remedy for a mistrial or dismissal of charges.
Woodell 344 Pa Super 487, 496 A.2d 1210 (1985).

Commonwealth v.

THE PROSECUTION AND DEFENSE

COUNSELS ARE GROUNDED IN ITS DUTIES TO DISCLOSE EXCULPATORY EVIDENCE TO THE
DEFENDANT INCLUDING, BALLISTICS REPORTS; AUTOPSY REPORTS; AND PHOTOS OF THE
CRIME SCENE; BULLET CASINGS FOUND AT THE SCENE; FINGERPRINTS FOUND AND OR
ANYOTHER MATERIAL EVIDENCE THAT SHOULD BE DISCLOSED TO THE DEFENDANT. Bradv v.
Maryland 373 U.S 83 (1963). Counsel for the defendant never dislosed any information with
him pre- trial phase, this caused a "Miscarriage of Justice" to occur. A sixth amendment
violation for ineffective assistanace of counsel.

26.

Upon Crystal Fredericks statements to police implicating the defendant for both

murders of the victims, during this process, she asked the police office Sneath if she could go to
the car and when she was allowed, she took a whole bottle of pills (SOMAS) sleeping pills, the
poilce officer stopped her in the middle of this action and then took her back into the police
barracks where after a while she gave the police a second statement implicating the defendant
as the murderer. This statement was very different from the first staement to the police. She
was high on drugs from trying to commit suicide and the police then transported her to the J.C.
Blair Memorial Hospital and she was committed on a 302. See Exhibit "M" which states,
"attorney Hooper testified that he did obtain records of Crystal Fredericks committment to the
J.C. Blair Memorial Hospital where she was 302'd. The petitioner ascertains that he never went
over any information about the medical hospital records of Crystal Fredericks with counsel
about her suicide attemp at the police barracks and that the hospital had withdrawn blood
samples from her to obtain toxicology reports as well.

This would have proven that the

petitioner was not the murderer and that she was so high that she falsified reports to the
police during her questioning at the barracks becasue she was high on "Crack Cocaine; Somas;
and a high amount of alcohol." The petitioner still to this day claims his actual innocents and
that Crystal Fredericks committed the murders of Dixon and Wills.

NON- Disclosure of

discovery broke the PA.R.CRIM.P. 573 and rendered ineffectiveness of counsel under the Sixth
amendment and a Fourteenth amendment violation to due process for not receiving this
pertintent information that could have exonorated the petitioner for the crimes of murder.
27.

When someone is formally charged accued of a crime, they are entitled to certain

information and evidence disclosure meaning that defendants have the right to "discovery"
including police reports; interviews; recordings of interviews; photos; and any other material
evidence used against the accused. However, the defendants who are the victims ofparaelle
construction are unable to discover and challenge evidence used against them in a trial If the
evidence and the investigative methods of gathering that evidence was concealed or never
formally reported.

Therefore, the use of paraelle construction interferes with defendants

rights to evidence disclosure and the right to a fair trial, which violates the constitutional
rights to due process under the Fifth and Fourteenth amendments.
28.

Although in Brady it does not clearly state that a specific request favorable evidence

was a prerequisite to triggering a prosecutors duty to disclosure, the significance of a focused
request was underscored in subsequent decisions, in Moore v. Illinois 408 U.S. 786 (1972). In
United States v. Agurs 427 U.S. 97 (1976) the court determined that no distinction should be
drawn between requests phrased in general terms and situations such as Aaurs when no
request is made. When the evidence is obviously exculpatory, " or so clearly supportive of a

claim of innocence, the duty to repond arises not from the nature of the request but from the
charcter of the evidence. " Morover, "there are situations in which evidence is obviously of
such exculpatory value to the defnse that elementary fairness requires it to be disclosed even
without specific request Agurs, Supra, "the court hypothesized, is a case were the prosecutor
possessed finger print evidence proving that the defendant could not have fired the fatal
shot.
29.

The rough interview notes that were never released to the petitioner during the pre­

trial hearings were withheld from the. petitioner by the Commonwealth and his own defense
team attorney's Hooper and Smith.

The discovery packet was never introduced by the

defendants lawyers due to what they say was his mental illnessess that they would not even
raise as an issue to the court that he had infact suffered from brain damnage from a high fall
some years eralier which is a matter of record at the hopital. The notations that they took on
the night of the interrigations should have been held by the Commonwealth and handed over
to the defense team for proper disclosure. Under Brady v. Maryland 373 U.S. 83 (1963),
requiring, " disclosure of exculpatory evidence of the Jenks Act." Under the Unites States v.
Abdallah 911 F.3d 2001, 218 (2018), Holds, "this court recognized that the officers drafting
notes must be disclosed under the Brady Rule when the defendant makes the appropriate
demonstration that the material sought would be exculpatory." All of the hand written notes
must be produced, a fortioro of must recordings of interviews should be produced.
Furthermore,

it is not necessarily true that the petitioner knows what he told the police

officers on the night of his arrerst due to his Paranoia from being heavily on mind altering
drugs at that point or even from the mental illnessess and brain damage on the left frontal
lobe that had occurred to him at a younger age. It would be impossible for him to understand
at this point now the things that were stated. It is also impossible for him to replicate in this
[PCRA] petition word for word, every question the officers propounded to him and every
answer he gave. Under the circumstances, at this point the petitioner did not even know what
the Brady Rule was at the begining of his trial or even up till now thats why he has a jailhouse
lawyer helping him so that his rights will be intact under this [PCRA] petition.
30.

Thomas Hooper and David Smith treated the petitioner as a retard because of his

evaluation from Dr. Arbitell and her reports made about the petitioner and his low I.Q score of
78. Hooper and Smith both pryed on the defendants family to induce them to make sure that
the petitioner did not go to trial because they did not want to try the case. This is one of the
reasons that he did not recieve discovery from his attorneys, they blamed it on his mental
illnessess. So they used big words on him when speaking to him about his situations with going
to trial. They made sure to induce him into taking the plea bargain. Two life sentences running

concurrent is not a bargain. Even at the police station fatique from giving the officers three
statements wore him down and they even induced him to confess to a crime that he did not
committ. This is a Sixth amendment violation ineffectiveness of counsel.
31.

Brady implies a duty to keep and not destroy records of the defendants statements
because it imposes a duty to produce them, especially for murder cases, and the
Commonwealth cannot produce them if agents / officers destroy them illegally. People v.
HaVes 950 N.E. 2d 118, 122 (N.Y. 2011). The protection of the "Brady Rule" extends to the
discoverable evidence gathered by the prosecution. In Kelly 62 JN.Y. 2d at 520 "seeks to
ensure disclosure, or prevent the destruction of exculpatory evidence and information
already in the peoples possession." Citing US. v. Moussaoui 591. F.3d 263 (2010) Holds,
"for the proposition that because "Brady right" is a trial right, it is within the scopeof the rule
that a guilty plea essentially waives a "Brady claim" when a defendant plead guilty "
However, Moussaoui pleaed guilty with no plea agreement and the courts inquiry was
whether the Brady right was similar to the other trial rights preceding the guilty plea that are
waived when the accused decides to plead guilty. In cases like Moussaoui the defendant
seeks to with draw his guilty plea and tried to use the Brady violation as a basis for the court to
allow the defendant to with draw his guilty plea or in anyother Was have rescission of his plea.
He simply wants to have a re-trial based upon the Brady violation. This is the case with the
petitioner, he asks this court to consider the fact that he did try to with draw his plea but
counsel failed to with draw it and pretended like he never asked the court to do so. This was
brought up at the post- sentence motion phase but the Judge and his counsel never even
decided what to do because he wanted to withdraw his plea. This was done on time. The
petitioner raised this claim within the proper time allowed by the court, which was ten days
after the imposition of the petitioners sentence.
32.
The plea agreements are governed by rules pertaining to contracts (except that
defendants can sometimes have greater rights than under commercial contracts due to the
fact that constitutional rights are being bargained away.) Wright v. Commonwealth

275

Va. 77, 82 655 S.E. 2d 7 (2008). "Generalprinciples of contrct law apply to plea agreements."
Looking to the precedents cited in support of such proposition of the opinion, we see that
which asserts that ambiguity must be resolved against the Government. See US. v. Crimino
381, F.3d 124 (2004).

In general, plea agreements are subject to ordinary contract law

principles, except that any ambiguity is resolved strickly against the Government." Such
proposition is firmly established in US. v. Rivera 357, F.3d 290 (2004); United States v.
Cooke 668 F.2d 317 (1982). Thus, the petitioner says the first issue must be whether the plea
agreement was ambiguous as to whether the Brady Claim is a trial right that he waived within
the scope of the agreement, or instead not a trial right, and hence one that he did not waive

under the plea agreement and whether an agreement is ambiguous to law.

hangman v.

Alumi Ass'n of the Univ. of Va 247, Va 291 (1994). Contracts are construde as written, without
adding in terms that were not included by the parties. Amchem v. Newport Cir Court 264 Va.
89 563 S.E. 2d 739 (2002).

If the agreement is not ambiguous, the the court adheres to the

"plain meaning rule": Additionally, it is well stated and established that when the terms of a
contract are clear and unambiguous, a court must give them their "plain meaning."
The petitioner contends that words "trial rights" in the agreement are ambiguous were
33.
they could be understood either as not embracing a brady right or as embracing a Brady right.
The reasons are as follows:
1.

The trial rights expressly stated in the agrrement namely;

2.

The right to a jury trial;

3.

The right to confront and cross-examine witnesses against him; and

4.

The right to remain silent under the Fifth amendment, are all rights expressly

stated in the Federal and State Bill of Rights.
However, the Brady right is not so expressly stated; it arives from case law. This factor cuts in
favor of interpeting the Brady not a trial right where under the Doctrine, "expressio unis est
exclusio alterius" "if a written "instrument" covers particular or express matters, the
intention may be inferred to exclude other subjects which in general words of the
"instrument" may otherwise have been sufficient to include." Yukon Pocahontas Coal Co. v.
Ratliff 181 Va 195 (1943). Which still holds to this very day to [EVEN TO] todays standards.
Furthermore, the enumerated, "trial rights" are literally asserted at trial. The Brady right is
not.

In deed, a formal request, usually made at pre- trial is not required to invoke the

obligation of the commonwealth to turn over exculpatory evidence.

Counter to their

arguments, one could argue that is a trial right were it is not a "jurisdictional right" and
therefore, is like the 3 enumerated trial rights. Or, one could argue that the Brady Right grows
out of the "Due process Clause" and that such a clause is expressly stated in the "Bill of
Rights." The upshot is that arguments can be made Pro, and Con, and hence that words "Trial
Rights" are ambiguous as to whether such an embrace a Brday right; thus, the ambiguity must
be construed aginst the Commonwealth. Baker thus, not having waived his right to assert a
"Brady Claim," this Honorable Court not only may recognize it, but must, recognize it because
Baker in entitled to the benefit of his contractual bargain, with the Commonwealth for his plea

deal.
When the defendant enters a plea bargain and the plea of guilty, in reliance on an
34.
agreement will be compelled. Watkin v. Commonwealth 25 Va. App 646 (1997). It must
occure. Baker in entitled to assert a Brady Claim Violation because his right under Brady is not
a right he expressly agreed to waive. Exculpatory evidence; statements; ballistics; DNA; all
retrievible evidence and notes and recordings that officers collected against the defendant
should be handed over for further litigation on whether it be a new trial or this litigation as it
stands currently in this Honorable court.
Wherefore, The petitioner prays that the Supreme court will allow these Fourteenth
'
!
amendment due process violations of the petitioners rights to be corrected and reversed and
remand and vacate the petitioners sentence and to grant either a new trial of actual innocence
or to be released on time served for the malice of injustices that occurred during the trial and
*
appeals processes due to ineffectiveness of counsels* and Sixth amendment violations and to
allow the petitioner to pass through the gateway of equitible tollings time bar.

Date

RimED'

